The Department of Health and Human Services And The Department of Justice Health Care Fraud and Abuse Control Program Annual Report For FY 2001
The Department of Health and Human Services
And
The Department of Justice
Health Care Fraud and Abuse Control Program
Annual Report For FY 2001
April 2002
TABLE OF CONTENTS
Executive Summary
Introduction
Monetary Results
Program Accomplishments
Department of Health and Human Services
Office of Inspector General
Office of the General Counsel
Administration on Aging
Centers for Medicare and Medicaid Services
Assistant Secretary for Budget, Technology and Finance
Department of Justice
United States Attorneys
Civil Division
Criminal Division
Civil Rights Division
Justice Management Division
Appendix: Federal Bureau of Investigation - Mandatory Funding
Glossary of Terms
General Note: All years are fiscal unless otherwise noted in the text.
EXECUTIVE SUMMARY
The detection and elimination
of health care fraud and abuse is a top priority of Federal law enforcement.
Our efforts to combat fraud were consolidated and strengthened considerably
by the Health Insurance Portability and Accountability Act of 1996 (HIPAA).
HIPAA established a national Health Care Fraud and Abuse Control Program (HCFAC
or the Program), under the joint direction of the Attorney General and the
Secretary of the Department of Health and Human Services (HHS)
(1), acting through the Department's Inspector General (HHS/OIG),
designed to coordinate Federal, state and local law enforcement activities
with respect to health care fraud and abuse. The fifth year of operation under
the Program saw a continuation of the collaborative efforts of Federal and
state enforcement and oversight agencies to identify and prosecute the most
egregious instances of health care fraud, to prevent future fraud or abuse,
and to protect program beneficiaries.
Monetary Results
In 2001, the Federal government
won or negotiated more than $1.7 billion in judgments, settlements, and administrative
impositions in health care fraud cases and proceedings. As a result of these
activities, as well as prior year judgments, settlements, and administrative
impositions, the Federal government collected more than $1.3 billion. More
than $1 billion of the funds collected and disbursed in 2001 were returned
to the Medicare Trust Fund. An additional $42.8 million was recovered as the
Federal share of Medicaid restitution. This is the largest return to the government
since the inception of the Program.
Enforcement Actions
Federal prosecutors filed 445 criminal
indictments in health care fraud cases in 2001. A total of 465 defendants
were convicted for health care fraud-related crimes in 2001. There were also
1,746 civil matters pending, and 188 civil cases filed in 2001. HHS excluded
3,756 individuals and entities from participating in the Medicare and Medicaid
programs, or other federally sponsored health care programs, most as a result
of convictions for crimes relating to Medicare or Medicaid, for patient abuse
or neglect, or as a result of licensure revocations. This record number of
exclusion actions is the result of successful collaboration with state Medicaid
Fraud Control Units (MFCUs) and state licensure boards.
INTRODUCTION
ANNUAL REPORT
OF
THE ATTORNEY GENERAL AND THE SECRETARY
DETAILING EXPENDITURES AND REVENUES
UNDER THE HEALTH CARE FRAUD AND ABUSE CONTROL PROGRAM
FOR FISCAL YEAR 2001
As Required
by
Section 1817(k)(5) of the Social Security Act
STATUTORY BACKGROUND
The Social Security Act
section 1128C(a), as established by the Health Insurance Portability and Accountability
Act of 1996 (P.L. 104-191, HIPAA or the Act), created the Health Care Fraud
and Abuse Control Program, a far-reaching program to combat fraud and abuse
in health care, including both public and private health plans.
The Act requires that an
amount equaling recoveries from health care investigations -- including criminal
fines, forfeitures, civil settlements and judgments, and administrative penalties,
but excluding restitution, compensation to the victim agency, and relators'
shares -- be deposited in the Medicare Trust Fund.(2)
All funds deposited in the Trust Fund as a result of the Act are available
for the operations of the Trust Fund.
As stated above, the Act
appropriates monies from the Medicare Trust Fund to an expenditure account,
called the Health Care Fraud and Abuse Control Account (the Account), in amounts
that the Secretary and Attorney General jointly certify as necessary to finance
anti-fraud activities. The maximum amounts available for certification are
specified in the Act. Certain of these sums are to be available only for activities
of HHS/OIG, with respect to Medicare and Medicaid programs. In 2001, the Secretary
and the Attorney General certified $181 million for appropriation to the Account.
A detailed breakdown of the allocation of these funds is set forth later in
this report. These resources generally supplement the direct appropriations
of HHS and the Department of Justice (DOJ) that are devoted to health care
fraud enforcement, though they provide the sole source of funding for Medicare
and Medicaid enforcement by HHS/OIG. (Separately, the Federal Bureau of Investigation
(FBI) received $88 million from HIPAA which is discussed in the Appendix.)
Under the joint direction
of the Attorney General and the Secretary, the Program's goals are:
to coordinate Federal,
state and local law enforcement efforts relating to health care fraud and
abuse;
to conduct investigations, audits
and evaluations relating to the delivery of and payment for health care
in the United States;
to facilitate enforcement
of all applicable remedies for such fraud;
to provide guidance
to the health care industry regarding fraudulent practices; and
to establish a national data bank to receive and report final adverse
actions against health care providers.
The Act requires the Attorney
General and the Secretary to submit a joint annual report to the Congress
which identifies both:
the amounts appropriated
to the Trust Fund for the previous fiscal year under various categories
and the source of such amounts; and
the amounts appropriated from the Trust Fund for such year for use by
the Attorney General and the Secretary and the justification for the expenditure
of such amounts.
This annual report fulfills
the above statutory requirements.
MONETARY RESULTS
As required by the Act,
HHS and DOJ must detail in this Annual Report the amounts deposited and appropriated
to the Medicare Trust Fund, and the source of such deposits. In 2001, as a
result of the combined anti-fraud actions of the Federal and state governments
and others, the Federal government collected a record high of more than $1.3
billion in connection with health care fraud cases and matters.(3)
These funds were deposited with the Department of the Treasury and the Centers
for Medicare and Medicaid Services (CMS) (formerly known as the Health Care
Financing Administration, HCFA), transferred to other Federal agencies administering
health care programs, or paid to private persons. The following chart provides
a breakdown of the transfers/deposits:
Total Transfers/Deposits
by Recipient 2001
Department of the Treasury
HIPAA Deposits
to the Medicare Trust Fund
Gifts and Bequests
$0
Amount Equal
to Criminal Fines
2,894,234
Civil Monetary
Penalties
6,060,481
Amount Equal
to Asset Forfeiture *
0
Amount Equal
to Penalties and Multiple Damages
454,615,907
Centers for Medicare and Medicaid Services
OIG Audit Disallowances
- Recovered
124,450,000
Restitution/Compensatory Damages
662,398,030
Restitution/Compensatory Damages to Federal Agencies
Office of Personnel
Management
8,078,116
Department of
Defense
11,264,448
Other Agencies
7,615,320
Department of
Health and Human Services - Other than CMS
4,165,252
Relators' Payments **
83,335,798
TOTAL
***
1,364,877,586
*This includes
only forfeitures under 18 United States Code (U.S.C.) 1347, a Federal health
care fraud offense that became effective on August 21, 1996. Not included
are forfeitures obtained in numerous health care fraud cases prosecuted
under Federal mail and wire fraud and other offenses.
**These are funds awarded
to private persons who file suits on behalf of the Federal government under
the qui tam provisions of the False Claims Act, 31 U.S.C. sec 3730(b).
***Funds are also collected
on behalf of state Medicaid programs and private insurance companies; these
funds are not represented here.
The above transfers include
certain collections, or amounts equal to certain collections, required by
HIPAA to be deposited directly into the Medicare Trust Fund. These amounts
include:
Gifts and bequests made
unconditionally to the Trust Fund, for the benefit of the Account or any
activity financed through the Account;
Criminal fines recovered
in cases involving a Federal health care offense, including collections
under section 24(a) of title 18, U.S.C. (relating to health care fraud);
Civil monetary penalties in cases
involving a Federal health care offense;
Amounts resulting from
the forfeiture of property by reason of a Federal health care offense, including
collections under section 982(a)(6) of title 18, U.S.C.; and
Penalties and damages obtained and otherwise creditable to miscellaneous
receipts of the general fund of the Treasury obtained under sections 3729
through 3733 title 31, U.S.C. (known as the False Claims Act, FCA), in cases
involving claims related to the provision of health care items and services
(other than funds awarded to a relator, for restitution or otherwise authorized
by law).
HIPAA requires an independent
biannual review of these deposits by the General Accounting Office (GAO).
The GAO review covering Fiscal Years 2000 and 2001 is ongoing.
PROGRAM ACCOMPLISHMENTS
Expenditures
In the fifth year of operation,
the Secretary and the Attorney General certified $181 million as necessary
for the Program. The following chart gives the allocation by recipient:
2001 ALLOCATION
OF HCFAC APPROPRIATION
(Dollars in thousands)
Organization
Allocation
Department of Health and Human Services
Office of Inspector
General (4)
130,000
Office of the General
Counsel
3,876
Administration on
Aging
1,500
Centers for Medicare
and Medicaid Services
2,552
Assistant Secretary
for Budget, Technology and Finance
500
Total
138,428
Department of Justice
United States Attorneys
24,244
Civil Division
16,810
Criminal Division
1,093
Civil Rights Division
609
Justice Management
Division
713
Total
43,469
Total
181,897
Accomplishments
2001 marked the fifth year
of the Program. During those five years, the Program's accomplishments have
been impressive. Over $2.9 billion has been returned to the Medicare Trust
Fund. In 1999, the Trustees of the Medicare Trust Fund extended their estimate
of the financial life of the fund by 30 years. One of the primary contributing
factors cited by the Trustees was "the continuing efforts to combat fraud
and abuse." (Trustees Annual Report, 1999). Returns to the Federal government
as a whole are even larger, over $3 billion. In addition, more than 2,000
defendants were convicted for health care fraud-related offenses. Over 15,000
entities or individuals were excluded from participating in Medicare, Medicaid
and other federally sponsored health care programs. The Healthcare Integrity
and Protection Data Bank is "up and running" and industry guidance and beneficiary
outreach have been greatly expanded. These continuing accomplishments of DOJ
and HHS and other partners in the coordinated anti-fraud effort, as well as
the extensive preventive activities, demonstrate that the increased funds
to address health care fraud and abuse are sound investments.
Collections
During this year, the Federal
government won or negotiated more than $1.7 billion in judgments, settlements,
and administrative impositions in health care fraud cases and proceedings.
As a result of these activities, as well as prior year judgments, settlements,
and administrative impositions, the Federal government collected $1.3 billion
in cases resulting from health care fraud and abuse, of which more than $1
billion was returned to the Medicare Trust Fund, and $42.8 million was recovered
as the Federal share of Medicaid restitution. It should be emphasized that
some of the judgments, settlements, and administrative impositions in 2001
will result in collections in future years, just as some of the collections
in 2001 are attributable to actions from prior years.
Judgments/Settlements
Working together, HHS and
DOJ have brought to successful conclusion the investigation and prosecution
of numerous costly health care fraud schemes. Among them, are the following:
HCA - The Healthcare
Corporation (HCA). Formerly known as Columbia/HCA, HCA, the largest
for-profit hospital chain in the United States, agreed to plead guilty to
criminal conduct and paid over $840 million in criminal fines and civil
penalties to the Federal government and the affected states related to five
areas of Medicare and Medicaid fraud. This investigation was the largest
multi-agency investigation of a health care provider ever undertaken by
the government.
Under the terms of the plea agreement, two subsidiaries - Columbia
Homecare Group, Inc. and Columbia Management Companies, Inc. - paid more
than $95 million in criminal fines and pleaded guilty to several charges
involving a wide range of criminal conduct which occurred at HCA's hospitals
nationwide. The criminal conduct charged included cost report fraud, fraudulent
billing of Medicare for personnel who worked at home health agencies and
other personnel who worked at wound care centers, fraudulent billing to
Medicare for patients diagnosed with pneumonia, paying kickbacks and other
remuneration to doctors to induce referrals, paying kickbacks in connection
with the purchase and sale of home health agencies, and fraudulent billing
of Medicare for fees paid to manage those agencies.
HCA also paid over
$745 million to resolve the civil allegations which included: upcoding of
pneumonia and other diagnosis-related groups, hospital laboratory tests,
overbilling arising from a series of acquisitions of home health agencies,
charging marketing costs as home health community education, and billing
for non-covered home health services. As part of the civil settlement, HCA
entered into a comprehensive 8-year corporate integrity agreement (CIA),
and agreed to divest itself of a hospital subject to exclusion.
Vencor, Inc.,
one of the nation's largest operators of nursing homes and long term hospital
services, agreed to pay the Government a total of $219 million of which
$104.5 million resolved civil claims that Vencor knowingly submitted false
claims to Medicare, Medicaid, and TRICARE, the military's health care program.
This civil settlement concluded a successful joint investigation and negotiation
by multiple Federal and state agencies, and represented the largest settlement
under the civil FCA to date based on failure to provide adequate health
care at long term care facilities. The company entered a 5-year CIA that
requires Vencor to adopt a comprehensive quality assurance infrastructure
at all levels. Importantly, the government proceeded against Vencor even
after the company filed for bankruptcy, stating that the long term care
institutions "care for our nation's most vulnerable citizens" and will be
held accountable, notwithstanding bankruptcy proceedings.
LifeScan, Inc.
Culminating from a cooperative effort among the Food and Drug Administration
(FDA), DOJ and HHS/OIG, the United States entered into a global settlement
for $60 million with LifeScan, a California corporation that develops, designs,
manufactures, distributes and sells blood glucose monitoring systems. The
company allegedly marketed an adulterated and misbranded medical device
for which Federal (including Medicare, U.S. Department of Veterans Affairs
(VA), and TRICARE) and state health care programs paid. The company also
pleaded guilty to a misdemeanor violation of FDA laws. To guard against
future compliance problems, the government included in the Special Conditions
of Probation a requirement that for the next 3 years the company conduct
extensive training and internal reviews, and report on these activities.
A separate 3-year CIA was also negotiated.
Quorum Health Group,
Inc. The owner of 30 acute care hospitals and manager of over 200 more,
settled a case for $87.5 million for allegedly engaging in fraudulent cost
reporting practices in violation of the FCA. The provider used "reserve"
cost reports to determine its allowable Medicare costs and then filed a
separate set of allegedly fraudulent cost reports to obtain greater Medicare
reimbursement. Quorum's successor, Triad, also entered a comprehensive 5-year
CIA.
These and other settlements
reflect the culmination of investigations that have been ongoing for several
years. Though settled in 2001, the fines and restitution generated by some
of these cases will not be credited to the Medicare Trust Funds until 2002.
Highlights of Other Collaborative
Efforts
Nursing Homes
One area in which collaboration
has proved most effective has been in enforcement and oversight of fraud and
abuse in skilled nursing facilities, particularly issues relating to quality
of care in these facilities, as demonstrated by the following:
Forensics Roundtable.
The DOJ hosted a roundtable discussion of elder abuse and neglect. The
roundtable, entitled "Elder Justice: Medical Forensic Issues Relating to
Elder Abuse and Neglect," brought together 27 preeminent experts to discuss
medical, legal and organizational issues concerning elder justice. The panel
of 27 experts represented a variety of professions and areas of expertise,
including geriatrics, forensic pathology, family medicine, psychiatry, pediatrics,
gerontology, nursing, social work, psychology, emergency medicine, adult
protective services, and Federal, state, and local law enforcement. The
discussion focused on four distinct but overlapping subjects relating to
elder abuse and neglect: (1) detection and diagnosis, (2) application of
forensic science, (3) education and training, and (4) research. A consensus
emerged that an inadequate research base, lack of education, insufficient
coordination, and poor planning nationwide have made it difficult to prevent,
detect, diagnose, intervene, treat, and prosecute elder abuse and neglect.
More information about the roundtable, including the recommendations for
follow-up, may be found at: http://www.ojp.usdoj.gov/nij/elderjust/index.html
Enforcement Actions.
Several important enforcement actions against nursing homes also culminated
in 2001, including the Vencor case, described above, and the following:
Questionable Nursing
and Therapy Services Charges: National Healthcare Corporation (NHC)
entered a $27 million civil settlement to resolve allegations that the
company submitted inflated Medicare costs reports.  The government
alleged that the cost reports overstated the number of hours that the
nursing staff spent caring for Medicare patients, and that some nursing
home personnel were billed as performing therapy on Medicare patients
which were not performed. As a condition of the settlement of this case,
NHC also entered a 5-year CIA.
Owner of Nursing
Home Excluded: The principal operator and co-owner of two nursing
homes and other health care businesses in Pennsylvania agreed to a 5-year
exclusion for his role in providing substandard physical, medical and
personal care to residents of those homes. The settlement represents
the first time HHS/OIG has excluded the owner of a health care facility
based on the owner's responsibility for poor quality of care at the
facility.
Heightened Monitoring
of Quality of Care: Manor Care, Inc., and affiliates, settled
a civil FCA case arising from alleged inadequate care to Medicare patients
residing at one of the corporation's skilled nursing facilities. The
government contended that the quality of patient care was substandard,
including inadequate nursing care for residents with pressure ulcers,
insufficient staffing, training and supervision, and missing or incomplete
assessments of residents' functional capacity and needs. Under the consent
order and judgment, the company will pay $90,000 to the government.
More importantly, the company is required to retain an independent consultant
and take other steps to closely monitor future quality of care at the
facility. To ensure compliance, the approving Court specifically retained
jurisdiction until the corporation fully implements all provisions of
the extensive order.
Criminal Convictions
for Bribery: A former official of the Oklahoma State Department
of Health and an Oklahoma nursing home owner were sentenced to three
years in prison and ordered to pay $50,000 in fines. Both were convicted
of bribery in violation of 18 U.S.C. § 666. Under the scheme, the owner
agreed to pay the Deputy Commissioner a bribe in return for the Deputy
Commissioner's aid in falsifying and backdating documents relating to
Medicare reimbursements to the nursing home company. The investigation
was conducted by the FBI, HHS/OIG and the Oklahoma State Attorney General's
MFCU.
Grants by DOJ.
During 2001 DOJ awarded grants to organizations for follow-up work based
on the Forensic Roundtable, and other projects, for the following purposes:
To establish a working
group of experts to identify, review, refine, and develop priorities
among the myriad of suggestions made at the Roundtable. One objective
of the working group will be to gather information from Federal agencies
and national, state, and local organizations about contemplated, planned
or existing activities related to medical forensic aspects of elder
abuse and neglect, in order to promote communication and coordination
and to identify promising practices.
To provide five community
organizations with funds to address elder victimization issues at the
community level, such as coordination and referral to law enforcement.
To provide a statistical
analysis and report of current data concerning local prosecutions for
nursing home abuse and neglect and other types of elder victimization
and a survey of local prosecutors to identify needs and priorities in
pursuing these cases.
To develop and empirically
demonstrate the signs of abuse, and to gain a further understanding
of bruising (location, coloration, and resolution) in the geriatric
population.
To identify and describe
the forensic markers for elder sexual abuse that will be used to develop
a database critical for understanding how intentional sexual injuries
may present in the geriatric population.
Recommendations to
Improve Quality of Care. The HHS/OIG issued several significant reports
assessing a variety of facets of nursing home care. In a study of Medicare
reimbursement for therapy services, significant levels of error were found
in physical, occupational, and speech therapy services to Medicare nursing
home patients. Medicare erroneously paid approximately $48.5 million for
medically unnecessary, undocumented and inadequately documented therapy
during the first half of 1999. This represented a disturbing overall error
rate of 24.7 percent. Enhanced provider education, and focused medical reviews
were recommended to reduce the error rate.
In addition, HHS/OIG evaluated
current practice in implementing the nursing home resident assessment and
concluded that inability to validate the resident assessment through the
medical record exposes the Medicare program to billing abuses. The HHS/OIG
also examined safeguards that ensure the appropriate admission and mental
health treatment of younger Medicaid beneficiaries who have a serious mental
illness and reside in nursing facilities, and found that the required pre-admission
screening and resident reviews are not in compliance with Federal requirements.
Technology
CMS and DOJ cosponsored
a national conference, Combating Health Care Fraud & Abuse: Technologies
and Approaches for the 21st Century, which explored technologies and approaches
used to detect, prevent, and investigate health care fraud and abuse in Federally-funded
health programs in June 2000. At the conference, interactive regionally-based
group working sessions produced recommendations for specific follow-up action,
which CMS and DOJ developed into an Action Plan for the future. The final
report and Action Plan were released in May 2001. Chief among these recommendations
was formation of a National Technology Group to consist of representatives
from Federal and state health care program integrity and law enforcement agencies.
The group was formed, and held its first meeting in June of 2001. The group
will address national issues that crosscut Federal and state health care program
and law enforcement agencies, provide policy and operational guidance, serve
as an information clearinghouse for the use of fraud detection technology
and collaborative program integrity and enforcement approaches, and seek to
facilitate formation and coordination of Regional Technology Users' Group.
Drug Pricing
Enforcement Actions:
Prescription drug pricing remains an important area of inquiry for the
HCFAC program. A number of investigations, audits and evaluations focused
on whether the government is paying reasonable and appropriate amounts for
covered prescription drugs. For example:
CIA Requiring Medicaid
Price Reporting: A settlement was finalized with the Bayer Corporation,
with the company agreeing to pay the Government $14 million and to enter
a 5-year CIA. At issue were the average wholesale prices that Bayer reported
for six of its drugs, and alleged misrepresentations that Bayer made to
state Medicaid programs and to CMS. The CIA is noteworthy because, for the
first time, a company agreed to affirmatively report certain drug pricing
information, including an obligation to provide certified pricing data directly
to the Medicaid programs for covered Bayer products.
Settlement in Connection
with Partially Filled Prescriptions: The DOJ and HHS/OIG, working jointly
with representatives of the MFCUs, reached settlement in a qui tam
action against CVS Corporation, involving allegations that the company submitted
claims for partially-filled prescriptions to Medicaid, TRICARE and the Federal
Employee Health Benefits Program (FEHBP). In addition to paying $4 million
to the government, CVS also agreed to a 4-year CIA.
Status of Medicare and
Medicaid Drug Pricing and Payment
Medicaid-Pharmacy Acquisition
Costs: Ongoing audits and evaluations have generated information that
will be valuable to policymakers who are considering alternate reimbursement
approaches. Following up on previous work, HHS/OIG conducted a nationwide
review of pharmacy acquisition costs for brand name drugs reimbursed under
Medicaid. Most states use average wholesale price (AWP) minus a percentage
discount, which varies by state, as a basis for reimbursing pharmacies for
drug prescriptions. This review sought to determine the size of the discount.
Based on pricing information from 216 pharmacies in 8 States, HHS/OIG estimated
that the national actual acquisition cost for brand-name drugs was an average
of 21.8 percent below AWP. In most states, the average discount below AWP
for reimbursement of estimated acquisition cost was only 10.3 percent in 1999.
If this disparity were eliminated, HHS/OIG estimated that nearly $1.1 billion
could have been saved for the 200 brand name drugs (accounting for the greatest
amount of Medicaid reimbursement in 1999).
Medicare-inflated Payments
for Prescription Drugs: In Medicare, HHS/OIG studies spanning the last
4 years have revealed that Medicare and its beneficiaries pay considerably
more than do other Federal health care programs for prescription drugs. In
January 2001, HHS/OIG released a report comparing Medicare reimbursement to
prices available to the physician/supplier community, the Department of Veterans
Affairs (VA), and to Medicaid. The study focused on 24 drugs representing
$3.1 billion of the $3.9 billion in Medicare drug expenditures in 1999. For
every drug in the review, Medicare paid more than the wholesale price available
to physicians and suppliers and the VA Federal Supply Schedule price. In fact,
for half of the drugs, Medicare paid more than double the VA price. Medicare
and its beneficiaries would have saved over $1.6 billion if it had paid the
same amount as does the VA, or $761 million at actual wholesale prices. These
comparisons were run again using more current drug pricing information --
the sometimes large discrepancies between Medicare and other reimbursement
for the same drugs remained. The study also found that Medicare carriers are
not establishing consistent drug reimbursement amounts for certain drugs.
The HHS/OIG recommended that CMS continue to seek administrative and legislative
remedies to reduce excessive drug reimbursement amounts and require all carriers
to reimburse a uniform amount for each drug.
Medicaid Rebates: Medicaid
reimburses pharmacies and other providers for the drugs that they dispense
to Medicaid beneficiaries. Manufacturers must pay rebates, shared between
states and the Federal government, on all drugs sold to Medicaid. The rebate
is based on the difference between best price and Average Manufacturers Price
(for sole source drugs) or a statutory percentage of the Average Manufacturer
Price (for generic drugs). "Best price" is defined as the lowest price at
which drug manufacturers sell drugs to any non-governmental, for-profit purchaser
and specifically includes sales to health maintenance organizations (HMOs).
CMS guidance permits the exclusion of sales to drug repackagers in calculating
the best price. However, this follow-up review confirmed that manufacturers
were excluding sales to repackagers from their best price, even when the repackagers
were HMOs. CMS guidance does not permit the exclusion of sales to repackagers
if the "repackager" is not actually reselling the drug, i.e., is, instead,
"selling" the drug to a subsidiary or affiliate - in effect keeping the drugs
for its own use. As a result, the Medicaid program lost drug rebates totaling
$80.7 million. The HHS/OIG recommended that CMS require drug manufacturers,
who excluded sales to HMOs from their best price determinations, to repay
the lost rebates. CMS concurred, and intends to revisit policies on exclusion
of sales from best price determinations.
Pharmacy Payments from
Third Parties: Millions of Medicaid beneficiaries have other pharmacy
coverage through private health plans, employers, non-custodial parents, State
programs such as workers' compensation, or Federal programs such as Medicare.
Because Medicaid is usually considered the payer of last resort, other insurance
sources may be liable for claims providers send to Medicaid. An HHS/OIG study
found that States were at risk of losing 80 percent ($367 million) of the
payments they tried to recover ($440 million) in 1999 through a "pay and chase"
approach. On the other hand, States that did not make the unnecessary payments
in the first place safeguarded $185 million against possible risk. Almost
three-quarters of States surveyed reported that third parties refuse to process
or pay Medicaid pharmacy claims. States say they have more problems with pharmacy
benefit management companies than with all other types of third parties combined.
The $367 million represents the universe of potentially recoverable claims.
In those states where financial records were reviewed, the amount actually
recoverable is somewhat less due to coverage and eligibility requirements
of third party payers that are not known to States. The CMS concurred with
HHS/OIG recommendations to review use of cost avoidance waivers (which authorize
Medicaid to pay first and seek reimbursement from private insurers), improve
claim formats, and educate third party payers.
Program Exclusions
There was another significant
rise in the number of individuals and entities excluded from doing business
with Medicare, Medicaid and other Federal and state health care programs.
Exclusions in 2001 were at a record high. A total of 3,756 individuals and
entities were excluded from participation in Federal programs. This is a 12.1
percent increase from 3,350 exclusions in 2000.
A more detailed description
of these and other accomplishments of the major Federal participants in the
coordinated effort established under HIPAA follows. While information in this
report is presented in the context of a single agency, most of these accomplishments
reflect the combined efforts of HHS, DOJ and other partners in the anti-fraud
efforts.
FUNDING FOR DEPARTMENT OF HEALTH AND
HUMAN SERVICES
Office of
Inspector General
Certain of the funds appropriated
under HIPAA are, by statute, set aside for Medicare and Medicaid activities
of HHS/OIG. During the fifth year of the Program, the Act provided that between
$120 and $130 million be devoted to these purposes. The Secretary and the
Attorney General jointly allotted $130 million to HHS/OIG in 2000, an increase
of $10.75 million over 1999.
HHS/OIG conducted or participated
in 840 prosecutions or settlements in 2001, of which 664, or
79 percent, were health care cases. A total of 3,756 individuals and entities
were also excluded, many as a result of criminal convictions for crimes related
to Medicare or Medicaid (682); or to other health care programs (66); for
patient abuse or neglect (309); or as a result of licensure revocations (1,846).
This all time high in exclusion actions is the result of increased outreach
and collaboration with State licensing boards and MFCUs.
In addition to HHS/OIG's
role in bringing about the judgments and settlements described in the Overview
of Accomplishments, HHS acted on HHS/OIG recommendations and disallowed $124.45
million in improperly paid health care funds in 2001. HHS/OIG continues to
work with CMS to develop and implement recommendations to correct systemic
vulnerabilities detected during HHS/OIG evaluations and audits. These corrective
actions often result in health care funds not expended (that is, funds put
to better use as a result of implemented HHS/OIG initiatives). In 2001, such
funds not expended amounted to more than $16 billion -- nearly $13 billion
in Medicare savings, and $3.1 billion in savings to the Medicaid program.
Fraud and Abuse Prevention
HIPAA's increased resources
have enabled HHS/OIG to broaden its efforts both to detect fraud and abuse,
and to prevent it. Prevention initiatives, such as those listed below, inform
and assist the health care industry and its patients. Equally important, these
prevention activities reduce program losses and enforcement costs.
Industry Guidance.
The centerpiece of the HIPAA guidance initiatives was an advisory opinion
process through which parties would obtain binding legal guidance as to
whether their existing or proposed health care business transactions ran
afoul of the Federal anti-kickback statute, the civil monetary penalties
laws, or the exclusion provisions. During 2001, HHS/OIG issued 21 opinions.
A total of 66 advisory opinions have been issued since 1997. The advisory
opinion process serves to enhance HHS/OIG's understanding of new and emerging
health care business arrangements and informed the development of new safe
harbor regulations, fraud alerts, and special advisory bulletins.
Corporate Integrity
Agreements. Many health care providers that enter agreements with the
government in settlement of potential liability for violations of the FCA
also agree to adhere to a separate CIA. Under this agreement, the provider
commits to establishing a program or taking other specified steps to ensure
its future compliance with Medicare and Medicaid rules. The duration of
most CIAs is 5 years, during which time the provider must submit periodic
reports to HHS/OIG. These agreements require a substantial effort by the
provider to ensure that the organization is operating in accordance with
Federal health care program requirements and the parameters established
by the CIA. At the close of 2001, HHS/OIG was monitoring more than 300 CIAs.
Compliance Roundtable.
In July 2001, HHS/OIG and the Health Care Compliance Association cosponsored
a Roundtable discussion to afford providers and other entities an opportunity
to talk directly with HHS/OIG officials about compliance programs subject
to CIAs. The meeting offered HHS/OIG an opportunity to describe its CIA
policy objectives and receive providers' unique insights on ways to accomplish
these objectives without unnecessary burden on the providers. Over 50 health
care providers and 30 Government representatives took part in group discussions
on topics that ranged from compliance education and training, and compliance
program infrastructure, to audit requirements and reporting to HHS/OIG.
Participants from both industry and government exchanged ideas about how
best to work together to protect the integrity of the health care system.
In a related effort to obtain feedback on implementation and maintenance
of compliance programs and CIAs, HHS/OIG also distributed a survey to providers
that were, at the time, operating under CIAs. The survey sought information
relating both to the substance of CIA requirements (such as independent
review organizations, confidential disclosure programs, claims review, and
reporting) as well as the responsiveness and professionalism of HHS/OIG's
oversight. The results of both the survey and the Roundtable will provide
valuable information to the HHS/OIG as it reexamines and reforms the CIA
process. More information on the results of the survey may be found at http://oig.hhs.gov/.
In response to feedback received
from the Provider Roundtable and the survey of providers subject to CIAs,
the HHS/OIG developed a plan to modify its role in the civil settlement
process. First, the HHS/OIG developed criteria for the provider community
as to those situations which would not require a CIA to resolve a provider's
liability under the FCA. Second, the HHS/OIG modified the claims review
procedures contained in CIAs, and revised the CIA requirement with respect
to the use of independent review organizations. Both changes are intended
to reduce the financial impact of these requirements without weakening the
integrity of a provider's compliance program. These modifications will be
offered both to providers which negotiate future CIAs, as well as those
with existing CIAs.
Medicare Error Rate:
The HHS/OIG reported that improper payments under Medicare's fee-for-service
system totaled an estimated $11.9 billion during 2000. That estimate was
the lowest to date and about half of the $23.2 billion that was estimated
for 1996, when HHS/OIG developed the first national error rate. The HHS/OIG
developed the estimate of improper payments with the support of medical
experts who together reviewed a comprehensive statistical sample of Medicare
fee-for-service claims expenditures and supporting medical records to determine
the accuracy and legitimacy of the claims.
The HHS/OIG believes that since
the first error rate of 1996, CMS has demonstrated continued vigilance in
monitoring the error rate and developing corrective action plans. Clearly
these corrective actions have been successful. The majority of health care
providers now submit claims to Medicare for services that are medically
necessary, billed correctly, and documented properly. As in past years,
HHS/OIG estimated that over 90  percent of the 2000 fee-for-service
payments met Medicare reimbursement requirements. The HHS/OIG's 5-year analysis
indicates that over 70 percent of the claims that did not meet reimbursement
requirements were attributable to unsupported and medically unnecessary
costs - two areas that will receive ongoing monitoring.
Recommendations for
Systemic Improvements: Frequently, investigations, audits and evaluations
reveal vulnerabilities or incentives for questionable or fraudulent financial
practices in agency programs or administrative processes. As required by
the Inspector General Act, HHS/OIG makes recommendations to address these
vulnerabilities, and thereby promote economy and efficiency in HHS programs
and operations. Relying on the independent factual information generated
by HHS/OIG, agency managers recommend legislative proposals or other corrective
actions that, when enacted or implemented, close loopholes and reduce improper
payments or conduct. The net savings from these joint efforts toward program
improvements can be substantial. Many of the studies described throughout
this report offered evidence and ideas supporting proposals for significant
cost savings during 2001 and beyond. Prominent examples of these reviews
include the following:
Upper Payment
Limit (UPL). States are allowed to pay Medicaid facilities above
their cost for a service or procedure, as long as the State's aggregate
payment does not exceed the amount that would have been paid under Medicare
(referred to as the upper limit). In a series of audits, HHS/OIG has
found that some States use intergovernmental transfers as a financing
mechanism to maximize Federal Medicaid reimbursement available through
UPLs, and effectively avoid contributing the state share of Medicaid
spending. Over the past year, CMS has published three final regulations
to curb states' use of this loophole. The CMS estimates that the new
rules will save $77 billion in Federal Medicaid funds over the next
10 years.
Therapy. The
Balanced Budget Refinement Act of 1999 suspended Medicare reimbursement
caps on Part B physical, occupational, and speech therapy that were
imposed in 1997. The monetary caps on services coincided with a dramatic
decrease in Part B therapy charges during 1999. Preliminary reports
indicate that there was a rebound in Skilled Nursing Facility therapy
charges in 2000 and 2001. An HHS/OIG study indicated that this rebound
is attributable both to the moratorium on caps and perceived inadequate
contractor oversight of billing practices and medical necessity of Part
B therapy. In response, CMS will take steps to ensure that adequate
medical reviews of Part B therapy are conducted and to improve providers'
understanding of guidelines for Part B therapy and billings.
UPIN. An evaluation
of Unique Physician Identification Numbers (UPINs) revealed a fundamental
vulnerability in Medicare's claims payment process -- one that can easily
be corrected. The report found that in one year, Medicare paid over
$90 million for medical equipment and supply claims with invalid or
inactive UPINs. Moreover, a small number of suppliers accounted for
a significant share of these charges. The HHS/OIG recommended that CMS
revise claims processing to ensure that claims contain UPINs that are
valid and active. As HIPAA requires CMS to establish unique identifiers
for all health care providers, this report recommended that CMS take
steps to validate and update UPIN Registry data prior to implementation
of the new provider identifier system
Payments for Mental
Health Services: A study of Medicare payments for mental health
services revealed that 39 percent of psychiatric services in nursing
homes were medically unnecessary, had no mental health documentation
or were questionable. An area of particular vulnerability was psychological
testing; nearly one-third of the tests were too frequent, medically
unnecessary, or utilized questionable testing instruments. CMS has agreed
to develop guidelines in these areas, which will both protect the quality
of mental health services and could result in a potential savings of
$30 million a year.
In a separate study, HHS/OIG found that Medicare allowed $185 million
in 1998 for outpatient mental health services that were medically unnecessary,
billed incorrectly, rendered by unqualified providers, and undocumented
or poorly documented. CMS has agreed to take steps to identify problematic
mental health services for prepayment edits or post-payment medical
review, promote awareness of documentation and medical necessity requirements,
further refine guidance on a particular testing code, and require carriers
to initiate recovery of payments for the inappropriate outpatient mental
health services identified in the report.
Duplicate Payments.
An HHS/OIG evaluation of 15 procedure codes found that Medicare's claims
processing system permitted duplicate payments by more than one carrier.
Total improper payments for the sample services were approximately $446,000.
HHS/OIG recommended that CMS either revise Common Working Files edits
to detect and deny duplicate billings, or, if more cost effective, increase
post-payment reviews. A related study disclosed 3,152 services involving
potential duplicate payments made by the same carrier, resulting in
estimated questionable allowances of approximately $2.25 million. Other
potential duplicate payments were found involving over 2,000 other procedure
codes. CMS has agreed to investigate its claims processing systems to
determine why potential duplicate services were not detected and to
recover improper payments.
Focus on Quality of
Care
HHS/OIG investigations,
audits and evaluations focus not just on improper billing for health care
services, but also the quality of care provided to program beneficiaries.
Activities designed to promote or safeguard beneficiary care included:
Enforcement Actions:
A physician convicted
twice in Florida was excluded from Medicare and other health care programs
for 25 years for practicing medicine without a license, and later for
executing a scheme for obtaining fraudulent medical school documents which
he used to secure a license. He then represented himself to be a qualified
and validly licensed physician and billed health care programs through
the mail for services he provided to patients. The court ordered him jailed
for 39 months and to pay almost $5 million in restitution.
The owner of an Illinois
business providing counseling services was sentenced to more than three
years incarceration and required to pay $6.7 million in restitution for
submitting false claims for group psychotherapy sessions that either never
occurred or were conducted by unlicensed personnel. To bill for these
sessions, the owner used the Medicare provider numbers of licensed clinical
social workers, physicians and other mental health professionals without
their knowledge.
An Indiana woman was
convicted of mail fraud for having forged two occupational therapy licenses
for her own use after taking copies of actual licenses from a local hospital.
For over two years, the woman, who had no medical training, worked in
an Indiana nursing home treating disabled Medicare beneficiaries. The
costs of her salary and the services she provided were ultimately billed
through the nursing home's cost report and paid by the Medicare program.
This criminal case resulted from the HHS/OIG Self-Disclosure Program.
The owner of a now
defunct Durable Medical Equipment (DME) company was convicted for paying
$85,000 in kickbacks to induce a physician to order wound care supplies
billed to Medicare. The individual also violated misbranding rules of
the FDA through his ownership of a company that manufactured hydrogel
wound care dressings which were labeled and packaged as "sterile" but
were not actually tested for sterility. In an earlier civil settlement,
the former owner agreed to pay the Government $255,000 and accepted a
15-year exclusion from Federal health care programs.
Patient Anti-Dumping
Enforcement. HHS continues to pursue potential violations under the
Emergency Medical Treatment and Labor Act, also called the patient anti-dumping
statute. In 2001, HHS/OIG obtained 21 settlement agreements and judgments
with hospitals and physicians and collected civil monetary penalties of
nearly $437,750. This reflects the continued commitment of both CMS and
HHS/OIG to ensure patient access to appropriate emergency medical services.
Other Judgments
and Settlements. In addition to the significant enforcement actions
described in the Program Accomplishments section of this report, the HHS/OIG
conducted or participated in over 664 investigations that resulted in prosecution
or settlement during 2001, involving all aspects of the health care industry.
These include:
Prescription Drug Fraud.
The HHS/OIG worked with the DOJ Drug Enforcement Administration and State
and local authorities to investigate fraudulent diversion and "street"
sale of prescription drugs such as OxyContin. These schemes often involve
patients, beneficiaries, pharmacists, physicians and others who obtain
prescription drugs, reimbursed by Medicaid, under false pretenses for
personal use or for resale. One such investigation in Maine has already
resulted in 19 guilty pleas for health care fraud and related offenses.
In another matter, the chief of the radiology department at a Virginia
hospital was sentenced for acquiring a controlled substance by misrepresentation,
fraud, forgery, deception and subterfuge. From June 1998 through January
1999, the radiologist accessed the hospital's pharmaceutical cabinet and
diverted morphine and fentanyl for his own use over 175 times. To conceal
this diversion, he created charge tickets indicating that the drugs were
for patients undergoing invasive procedures. Because many of the patients
were Medicare beneficiaries, the program was inappropriately billed for
pharmaceuticals taken under false pretenses.
A third physician was sentenced to more than 10 years for conspiracy
to dispense and distribute controlled substances and for Medicare fraud
and kickbacks, and was ordered to pay $229,384 in restitution. The indictment
alleged that the physician routinely wrote large quantities of prescriptions
for highly addictive pain medication, billed Medicare for services not
provided and upcoded office visits. A pharmacy owner was convicted
in the same scheme, and sentenced to serve 16 years imprisonment and fined
$56,400 for drug-related offenses. Through his pharmacy, the individual
dispensed in excess of one million doses of highly addictive pain medication
based upon prescriptions written by the physician. Furthermore, the individual
knowingly filled hundreds of invalid prescriptions that the physician
had prewritten and which contained false information.
Kickbacks and Patient
Brokering. In 2001, ten individuals including four who were principal
owners of the largest illegal patient brokering network in the United
States were sentenced in Florida. From 1989 through 1997, the company
engaged in the business of supplying patient referrals to inpatient psychiatric
hospitals for up to $6,000 per patient. The company acquired patient referrals,
including Medicare beneficiaries, by paying kickbacks to referral sources.
To disguise the patient referral fees as legitimate services, the company
created false contracts and agreements with the hospitals. The investigation
is ongoing.
In a separate matter, a total
of 31 defendants were indicted in a Medicare fraud and kickback scheme
investigated by a joint health care fraud task force in Florida. Owners
of a DME company and clinic and their associates allegedly recruited Medicare
beneficiaries involved and used their Medicare numbers to bill the program
for equipment not provided. The beneficiaries also signed fraudulent delivery
receipts for the equipment in return for kickbacks in cash, checks or
food. To date, 10 of the 31 individuals charged in connection with this
investigation have pled guilty.
Office
of the General Counsel
In 2001, the Office of
the General Counsel (OGC) was allocated $3.8 million in funding from HCFAC.
These funds were used primarily for litigation activity, both administrative
and judicial.
Accomplishments
Initiatives for Preventing
Health Care Fraud
Stark regulation
- Continuing its work with CMS and HHS/OIG to clarify the prohibitions
against self-referrals by physicians to protect beneficiaries and taxpayers
from potentially abusive referral patterns, OGC finalized Phase I of the
final rule and is working with HHS/OIG and CMS to complete Phase II of
the final rule. Phase II gives physicians clear direction about how to
structure financial arrangements if they are ordering certain services
from a hospital or other entity with which they have a financial relationship.
Community Mental
Health Center Initiative - During 2001, OGC provided comprehensive
legal assistance to CMS, Region VI, with respect to the planning and unprecedented
implementation of a large scale suspension of payments project. Fraudulent
physical therapy claims in the Houston, Texas area were being filed for
services that were either medically unnecessary or for services that were
not actually being provided. OGC provided legal clearance for the coordinated
suspension of payments to more than 60 physical therapy clinics in August
2001. To date, none of these suspensions have resulted in any court challenge.
Policy Guidance and
Education
OGC improved the effectiveness
of the Nursing Home Oversight and Improvement Program enforcement effort
by (1) recommending legislation and submitting comments on draft legislation
(ultimately included in the Department's legislative package) to bar Federal
court jurisdiction over attempts by Medicaid-only facilities to enjoin
HHS enforcement actions; (2) submitting comments and suggested revisions
on proposed changes in State Operations Manual; (3) commenting on and
suggesting revisions to CMS's model enforcement notice letters; (4) proposing
changes to Part 498 of the regulations governing appeals; (5) making presentations
to CMS surveyors and enforcement staff, state surveyors and state survey
agency attorneys on survey and enforcement issues; and (6) preparing a
160-page digest of all administrative decisions in nursing home enforcement
cases, which is now used by CMS and OGC offices nationwide.
OGC is building on
successful partnerships previously established in Wisconsin, Michigan
and Ohio, by initiating "Medicare Secondary Payer partnership" discussions
with the U.S. Attorney's Offices for the Northern and Southern Districts
of Indiana with the Medicare contractors for Indiana. In 2001, OGC secured
an agreement in principle and is now working out the details of the partnership
arrangements and procedures designed to enhance recovery of conditional
Medicare payments in tort cases involving Medicare beneficiaries in the
State of Indiana.
Civil and Criminal
Enforcement Actions
Qui Tam Covenant
Care settlement - In May 2001, the United States resolved allegations
of fraud with Covenant Care for $1.6 million. Covenant Care allegedly
submitted false claims to Medicare for its nursing homes by improperly
allocating hours to the Medicare certified distinct parts of its nursing
facilities for nursing services that were actually provided in the non-certified
parts of the facilities. OGC's CMS division worked closely with DOJ to
calculate the amount of damages and recovered an additional $450,000 for
overpayments made to Covenant Care that fell outside the scope of the
fraud investigation. This cooperative effort resulted in a significant
return to the Medicare trust fund.
OGC asserted CMS's
interests in numerous bankruptcy and receivership actions throughout the
country by negotiating agreements to recover overpayments and advancing
the use of offset recovery. For example, in Vencor, the court affirmed
the plan of reorganization under which the United States will receive
$104.5 million under the FCA on behalf of the Medicare Trust Fund, which
includes $20.8 million for false claims involving substandard quality
of care. Medicare will receive another $92.5 million for other overpayments.
Administration
on Aging
In 2001, the Administration
on Aging (AoA) was allocated $1.5 million in HCFAC funds to develop and
disseminate consumer education information to older Americans, with a particular
focus on persons with low health literacy, individuals from culturally diverse
backgrounds, persons living in rural areas, and other vulnerable populations.
AoA and its nationwide network of agencies supported community education
activities designed to assist older Americans and their families to recognize
and report potential errors or fraudulent situations.
Accomplishments
National Technical
Assistance Resource Centers: AoA established and supported four national
resource centers to provide materials and technical assistance to aging
service professionals for the purpose of educating and empowering vulnerable
and culturally diverse older Americans to take a more active role in monitoring
and protecting the benefit integrity of Medicare and Medicaid.
National Videoconference
on "Innovative Strategies for Reaching Underserved and Unserved Populations."
AoA and its four resource centers convened a national video conference
that was linked via satellite to more than 130 community locations in
41 states. The video conference informed thousands of professionals and
others who provide services to older Americans about successful strategies
for educating minority, rural, and non-English-speaking beneficiaries
about Medicare and Medicaid fraud and abuse. The program continues to
be distributed via videotapes, and is available on-line through the resource
centers' website.
Regional Partnership
and Collaboration Conferences. AoA convened four regional conferences
which brought together hundreds of Federal, state, and community partners
to share successful products and practices, strengthen collaboration between
Federal, state, and local partners, and to work to advance the performance
of outcome tracking mechanisms.
Development of New
Website. AoA launched a new website dedicated to information about
Medicare and Medicaid fraud and abuse. The purpose of the site is to promote
consumer awareness and facilitate the sharing of information and best
practices between the agency's partners and grantees, as well as among
aging network professionals.
Distribution of
Community Education Materials. HCFAC funding supported the distribution
of health care journals in nearly every state in the country, as well
as community education brochures in English, Spanish, and Mandarin Chinese.
Community education videos in English, Spanish, and Chinese that were
developed with HCFAC funding during 2000 were distributed throughout 2001
via AoA's grantees and through the network of state and area agencies
on aging.
Senior Medicare
Patrol Projects: AoA provided technical assistance to AoA's 52 Senior
Medicare Patrol (SMP) projects, located in 47 states plus the District
of Columbia and Puerto Rico. The projects recruit and train retired individuals
to educate other seniors in their communities about how they can help
prevent and detect potential Medicare and Medicaid error, fraud, and abuse.
The SMP projects trained more than 10,000 senior volunteers, in 2001,
who directly educated more than 300,000 beneficiaries.
Other Community
Education Activities: An estimated 40 million individuals were also
reached through a variety of television, radio, and print media events.
While it is not possible to directly track the cases reported and dollars
recovered through these community education activities, the projects reported
nearly $60 million in Medicare, Medicaid, and other dollars recouped through
the complaints they referred, and through their partnership activities.
Centers
for Medicare and Medicaid Services
In January 2001, $2.5
million in HCFAC funds was allocated to the Centers for Medicare and Medicaid
Services (CMS) to assist states in developing Medicaid payment accuracy
measurements (PAM) methodologies and to conduct pilot studies to measure
and reduce state Medicaid payment errors. CMS is also committed to exploring
the feasibility of estimating the range of improper Medicaid payments on
a national level. The focus of both the state-specific and national efforts
is on payment, not eligibility errors (which are governed exclusively by
section 1903(u) of the Social Security Act).
The funding was approved
for three purposes: (1) to contract for outside technical expertise to assess
state, Medicare and other PAM experience to date and develop a national
Medicaid methodology; (2) to provide incentive grants to two or three states
to conduct PAM studies and assess the feasibility of establishing a standard
methodology that might be used by all states; and (3) to hire four analysts
in CMS to direct and staff this initiative. CMS proposed to work closely
with HHS/OIG, and with the National Association of State Medicaid Directors
and its Fraud & Abuse Technical Advisory Group (TAG).
In July 2001, CMS' Center
for Medicaid and State Operations invited all state Medicaid and Program
Integrity directors to apply for participation in the PAM demonstration
project, which is a federally funded, collaborative effort to develop model
PAM methodologies for use on a state-specific and national basis. State
proposals were solicited under the authority of section 402(a)(1)(J) of
the Social Security Act Amendments of 1967. The duration of the project
will cover a minimum of two years, with funding approved initially for the
first year only.
Accomplishments
Nine states applied
to participate in the PAM pilot: Louisiana, Minnesota, Mississippi, New
York, North Carolina, North Dakota, Texas, Washington and Wyoming. Five
of these states are represented on the Medicaid Fraud and Abuse Control
TAG. On September 26, 2001, CMS approved all nine applications, with an
estimated cost to HCFAC of $1.8 million.
2002 Plans:
the nine states will test various approaches to Medicaid PAM. Most will
focus on fee-for-service payments, although Minnesota will address the
validation of encounter data, a key element of PAM in the managed care
context. In 2002 CMS will solicit participation of up to 15 states in
Year Two of the pilot, including potential funding of the initial 9 states.
As part of its 2002 efforts, CMS will evaluate the progress of the initial
pilots and may continue funding the initial nine states' efforts.
In September 2001,
CMS contracted with The Lewin Group for technical assistance to CMS and
the pilot states, at an estimated cost of $.7M for Year One of the pilot.
The Lewin Group's experience includes extensive work with CMS in developing
Medicare error rate measurement methodologies, as well as relevant studies
for a number of states. Lewin will work closely with the Medicaid pilot
states, CMS and HHS/OIG to help develop promising PAM methodologies. Lewin
will review the literature in this area to glean useful guidance, analyze
appropriate statistical approaches, explore how to apply PAM to managed
care, and propose standards for reviewing medical records.
Assistant
Secretary for Budget, Technology and Finance
At the end of 2001, $500,000
of HCFAC funds were allocated to the Assistant Secretary for Budget, Technology
and Finance (ASBTF) to fund certain contractual consultant services related
to the Departments's new financial management system. The services entail
providing oversight and independent verification and validation of the development
of the new system. The contract was awarded in September 2001. The funding
covers the requisite consulting services over the four-month period, ending
in January 2002.
The CMS Healthcare Integrated
General Ledger Accounting System will be a major component of the new HHS
integrated financial management system. This system will include Indian Health
Service (IHS) financial and health care-related information. The new system
will increase HHS managers' accountability, address various material weaknesses
at the CMS, strengthen internal controls at IHS, and help prevent waste and
abuse in HHS health care programs.
ASBTF is using a consulting
company to help ensure that the new integrated financial management system
is being developed to meet the Department's financial management goals. Specifically,
this HCFAC project is to ensure that the new system will preserve the integrity
of the Department's financial information and resulting financial statements
and management reports, including Medicare contractor information, CMS financial
information, and IHS' unique financial reporting needs that are related to
health care payment and delivery system. Overall, HHS will ensure the new
system's compliance with statutory requirements of the Chief Financial Officers
Act of 1990, the Federal Financial Management Improvement Act of 1996 and
other pertinent laws.
FUNDING FOR DEPARTMENT OF JUSTICE
United States Attorneys
Health care fraud involves
a variety of schemes that defraud public and private insurers and providers
nationwide. In addition to Medicare and Medicaid, a number of federally funded
health benefit programs have been the targets of these schemes. The fraudulent
activity may include double-billing schemes, kickbacks, billing for unnecessary
or unperformed tests, or may be related to the quality of care provided to
patients. In addition to monetary losses, in some instances these improper
activities endanger patient safety. United States Attorneys' offices (USAOs)
are responsible for civilly and criminally prosecuting health care professionals,
providers, and other specialized business entities who engage in health care
fraud and abuse.
USAOs continue to strengthen
and refine cooperative efforts with Federal, state and local law enforcement
agencies involved in the prevention, evaluation, detection, and investigation
of health care fraud and abuse. In addition to the FBI, HHS/OIG and CMS, USAOs
offices work with State Medicaid Fraud Control Units, Offices of Inspectors
General for a number of Federal agencies, the Drug Enforcement Administration,
the FDA, the Defense Criminal Investigative Service and the TRICARE Support
Office. Each USAO has appointed both a civil and criminal health care fraud
coordinator to assist in coordination and to facilitate communication between
Federal, state and local law enforcement groups. In addition, many cases are
investigated in a parallel fashion, so that potential criminal and civil remedies
are addressed more efficiently, by the attorneys and the agencies investigating
the wrongdoing. The criminal and civil judgments and settlements discussed
in the program accomplishments above were among the many significant accomplishments
of the USAOs and are examples of such parallel investigations and prosecutions.
Prior to the enactment of HIPAA, USAOs dedicated substantial resources to
combating health care fraud and abuse. HIPAA allocations have supplemented
these efforts.
Training
The Executive Office for
the United States Attorneys' Office of Legal Education (OLE) is tasked with
the responsibility for providing health care fraud training for USAO and DOJ
attorneys, investigators, and auditors. During 2001, OLE conducted a number
of courses and presentations on health care fraud, including:
Basic Health Care Fraud
Seminar - Criminal and Civil
Advanced Health Care
Fraud Seminar - Criminal and Civil
Affirmative Civil Enforcement
- Special Topics (includes a health care fraud component)
Affirmative Civil Enforcement
for auditors and investigators (includes a health care fraud component)
While the primary participants
in OLE sponsored courses were DOJ employees, agency counsel and investigative
personnel were also invited to participate as presenters and students. In
addition to OLE sponsored training, a number of USAO attorneys, auditors and
investigators participated in multi-agency health care fraud training courses
over the last year.
Accomplishments - Criminal
Prosecutions
The primary objective of
criminal prosecution efforts is to ensure the integrity of our nation's health
care programs and to punish and deter those who, through their improper activities,
adversely affect the health care system and the taxpayers.
Each time a criminal case
is referred to a USAO from the FBI, HHS/OIG, or another law enforcement agency,
it is opened as a matter pending in the district. A referral remains a matter
until an indictment or information is filed or the case is declined for prosecution.
In 2001, the USAOs had 1,791 criminal matters pending involving 2,733 defendants,
a 7 percent decrease in the number of criminal matters over 2000. During 2001,
445 cases were filed involving 601 defendants. This represents a 2 percent
increase over cases filed in 2001. A total of 465 defendants were convicted
for health care fraud-related crimes in 2001. Health care fraud convictions
include both guilty pleas and guilty verdicts. A sample of the criminal cases
brought by USAOs, in addition to those set forth in the overview section,
is set forth below.
In Florida, a physician
was sentenced to 12 years imprisonment for conspiracy to submit false claims
to Medicare and to prepare false health benefit claim forms, conspiracy to
violate the Medicare kickback statute, and for conspiracy to distribute prescription
narcotics. The physician was also ordered to pay restitution in the amount
of $350,000 and was ordered to forfeit an additional $250,000. The physician,
who purportedly ran a pain management clinic, in fact ran a prescription drug
"pill mill" which provided drug addicts with large quantities of prescription
pain killers. The physician submitted claims to the Medicare, Medicaid and
private health benefit programs claiming to have provided non-rendered medical
treatment to the addicts. In the same case, the physician's in-house pharmacist
was convicted of conspiracy to distribute prescription narcotics and was sentenced
to 16 years imprisonment.
In Indiana, a podiatrist
was sentenced to 68 months in prison following his guilty pleas to six counts
of mail fraud for fraudulently billing the Medicare, Medicaid and TRICARE
programs for a number of complex services that were medically unnecessary.
In addition to being sentenced to prison, the podiatrist was ordered to make
restitution in the amount of $2.76 million: $2.4 million to the Indiana
Medicaid Program; $504,000 to Medicare; and $16,000 to TRICARE.
In Florida, the owner of
a medical personnel staffing and home health management company was sentenced
to 37 months in prison and ordered to pay $923,100 restitution for defrauding
TRICARE and Medicare. The investigation disclosed that between 1992 and 1996,
the company fraudulently received reimbursements from TRICARE and Medicare
for costs allegedly incurred for overhead expenses and direct patient care
which were falsely reported as furniture costs, salary costs, Christmas bonuses,
and "royalty fees." The company owner, with the assistance of his son, also
paid kickbacks to three doctors for referrals to the home health company.
In Virginia, the president
of a medical transport company was sentenced to 37 months after pleading guilty
to one count of health care fraud for fraudulently billing the Medicaid Program
for approximately $1.4 million. In addition to the prison term, the president
was required to pay $1.4 million in restitution, and to forfeit an additional
$375,000. The scheme involved the submission of thousands of claims fraudulently
seeking payment for the transportation of ambulatory patients who were falsely
billed to Medicaid as being wheelchair-bound patients, and the submission
of billings for services not rendered and for transportation to destinations
not covered by Medicaid.
In New York, a physician
pleaded guilty to one count of health care fraud for fraudulently billing
Medicare and private health insurance companies for over $10 million billed
in a scheme through which the physician billed for "nerve block" injections
when in fact he only performed considerably less expensive acupuncture treatments.
As a result of the false billings, the physician received $800,000 from Medicare
and an additional $600,000 from ten private insurance companies. Pursuant
to the plea agreement, the physician has agreed to forfeit $820,000 to the
government, repay the private insurance companies $529,000 in restitution,
and pay $500,000 to settle a related civil FCA case.
Accomplishments - Civil
Cases
Civil health care fraud
efforts constitute a major focus of Affirmative Civil Enforcement (ACE) activities.
The ACE Program helps ensure that Federal laws are obeyed and that violators
provide compensation to the government for losses and damages they cause.
Civil health care fraud matters ordinarily involve the United States utilizing
the FCA, as well as common law fraud remedies, payment by mistake, unjust
enrichment and conversion to recover damages from those who have submitted
false or improper claims to the United States.
Each time a civil referral
is made to a USAO it is opened as a matter pending in the district. Civil
health care fraud matters are referred directly from Federal or state investigative
agencies, or result from filings by private persons known as "relators," who
file suits on behalf of the Federal Government under the 1986 qui tam amendments
to the FCA. Relators may be entitled to share in the recoveries resulting
from these lawsuits. At the end of 2001, the USAOs had 1,746 civil health
care fraud matters pending. A matter becomes a case when the United States
files a civil complaint, or intervenes in a qui tam action, in United States
District Court. The vast majority of civil health care fraud cases and matters
are settled without a complaint ever being filed. In 2001, 188 civil health
care fraud cases were filed. A sample of the civil cases brought by USAOs,
in addition to those in described in the overview section, are set forth below.
Seven hospitals located
throughout the country agreed to pay the United States almost $5.5 million
to settle claims that they unlawfully charged the Medicare and TRICARE programs
for surgical procedures using experimental cardiac devices. The devices had
not been approved for marketing by the FDA at the time the procedures were
performed between 1987 and 1994. The settlement involved hospitals in Florida,
California and Arizona. The government had previously entered into settlements
with other hospitals engaged in similar conduct and these other settlements
resulted in payments of almost $13 million. The settlement stems from a qui
tam filed by a former medical device salesman.
In Maryland, a nursing home
agreed to forego approximately $436,000 in Medicare and Medicaid reimbursements
to resolve allegations that the facility provided substandard nursing home
care between November 1998 and December 1999. In addition to the monetary
settlement, the nursing home entered into a comprehensive CIA with the government.
A managed care organization
in Illinois agreed to pay $2.9 million to settle civil allegations that it
defrauded Medicare by obtaining excessive capitated payments for beneficiaries
who were institutionalized. Based upon an audit by HHS/OIG, it was determined
that the managed care organization incorrectly categorized some of its beneficiaries
living in several counties in Illinois as being institutionalized between
October 1, 1995 and September 30, 1997. As a result, the managed care organization
received enhanced capitated payments from Medicare to which it was not entitled.
A 1998 HHS/OIG audit of a sample of the managed care organization's claims
for institutionalized beneficiaries revealed that 29 percent were incorrectly
categorized as institutionalized. In addition to the settlement, the managed
care organization also entered into a CIA with the HHS/OIG.
In California, two medical
practice groups agreed to pay $10.25 million to settle allegations that they
knowingly defrauded Medicare, TRICARE and Medi-Cal from 1992 to 1999 by submitting
numerous false claims to inflate reimbursement payments from Medicare, TRICARE
and Medi-Cal. The false billings alleged included: (1) billing for nonreimbursable
annual physical exams; (2) billing for routine doctor "referrals" as more
highly reimbursable "consultations;" (3) exaggerating the complexity of "evaluation
and management" office visits to obtain greater reimbursement; and (4) billing
for undocumented lab work and other ancillary services.
Civil Division
Civil Division attorneys
vigorously pursue civil remedies in health care fraud matters, working closely
with the USAOs, the FBI, the Inspectors General of the Department of Health
and Human Services and the Department of Defense, CMS, and other Federal and
state law enforcement agencies. Cases involve providers of health care services,
supplies and equipment, as well as carriers and fiscal intermediaries, that
defraud Medicare, Medicaid, the TRICARE program of the Department of Defense,
the FEHBP, and other government health care programs.
Accomplishments
In 2001, the Division opened
or filed a total of 92 health care fraud cases or matters. In addition to
these new efforts, the Civil Division pursued over 425 existing cases. A significant
number of these health care fraud cases have the potential for particularly
high damages. Civil Division attorneys were actively involved in the recoveries
described in the overview - HCA, Vencor, Quorum, LifeScan, NHC, and Bayer.
The following examples demonstrate the breadth and significance of other cases
in which the Division was involved during 2001.
The University of California
agreed to pay the Government $22.5 million to settle allegations that the
school's five teaching hospitals routinely submitted false billings to Medicare,
Medicaid and other Federally-funded health programs. The alleged false claims
included upcoding, as well as billing for services purportedly performed or
supervised by faculty physicians - when those services were, in fact, performed
by residents with little or no supervision.
In another recovery in the
ongoing "Operation LABSCAM" investigation, Quest Diagnostics agreed to pay
more than $13 million on behalf of Nichols Institute. Beginning in 1989 and
ending shortly after its acquisition by Quest in 1994, Nichols routinely billed
Federal health programs for laboratory test that were medically unnecessary.
Collectively, the Government has recovered over $850 million from the nation's
clinical laboratories as a result of LABSCAM and related investigations.
The civil complaints in
four qui tam suits against a lab which specializes in bladder and prostate
cancer testing were settled by a $9.1 million payment to the Government. The
allegations against Urocor included upcoding, unnecessary testing, and paying
kickbacks to referring physicians. Urocor will enter into a five-year CIA.
Following a bench trial,
the Government was awarded treble damages and penalties totaling $7.7 million
for Medicare fraud committed by Century Health Services, a chain of ten home
health care agencies. Medicare permits reimbursement for staff benefits, including
corporate contributions to employee stock ownership plans. However, the defendants
used the stock plan reimbursements for their personal benefit, leaving the
plan barren. The award is under appeal.
In addition to these case-specific
accomplishments, the Department's Nursing Home Initiative, coordinated by
the Civil Division, promotes, among other things, increased prosecution and
coordination at Federal, state and local levels to fight the abuse, neglect,
and financial exploitation of the nation's senior and infirm population. The
Department is pursuing a growing number of cases under the FCA involving providers'
egregious "failures of care." The financial crisis in the nursing home industry
has to date resulted in bankruptcy filings by five of the seven largest nursing
home chains and several smaller chains. These bankruptcy cases are the largest
ever involving health care providers, and raise the specter of failure of
care, as well as financial issues. The significance of these cases require
considerable and ongoing coordination among the Civil Division's Corporate
Finance and Civil Fraud sections, the Criminal Division, CMS, and HHS/OIG.
Also, the Civil Division
co-chairs with the Criminal Division the National level Health Care Fraud
Working Group, which meets quarterly and coordinates the health care fraud
enforcement activities of all concerned Federal and state agencies.
Vital resources were made
available from the Account to provide the Civil Division with Automated Litigation
Support, auditors, and consultants. These resources supplemented other Civil
Division funds. During 2001, the majority of these monies were used to support
two cases - HCA (Columbia) and the Department's tobacco litigation.
Criminal
Division
The Fraud Section of the
Criminal Division develops and implements white collar crime policy and provides
support to the Federal white collar enforcement community. The Fraud Section
supports the USAOs with legal and investigative guidance and, in certain instances,
provides trial attorneys to prosecute criminal fraud cases. For several years,
a major focus of Fraud Section personnel and resources has been to investigate
and prosecute fraud involving Federal health care programs.
The Fraud Section has provided
guidance to FBI agents, Assistant United States Attorneys and Criminal Division
attorneys on criminal, civil and administrative tools to combat health care
fraud, and worked on an interagency level through:
providing frequent advice
and written materials on confidentiality and disclosure issues arising in
the course of investigations and legal proceedings regarding medical records.
monitoring and coordinating
Departmental responses to major regulatory initiatives, legislative proposals,
and enforcement policy matters. Examples include issues such as provider
education and regulation, medical records privacy, Internet sales of drugs
and medical products and expansion of the Medicare program to provide prescription
drug benefits.
reviewing and commenting
on numerous requests for advisory opinions submitted by health care providers
to the HHS/OIG and consulting with the HHS/OIG on draft advisory opinions
per the requirements of HIPAA.
working with CMS officials
to promote more effective use of technologies and high-tech approaches for
combating health care fraud and abuse. DOJ and CMS prepared a report with
recommendations for future follow-up action based on a national conference
held for representatives from Federal, state and local health care programs
and law enforcement agencies to exchange information on electronic tools,
analytical techniques, and collaborative approaches for detecting and preventing
health care fraud and abuse.
preparing and distributing
to all USAOs and FBI field offices periodic updates on major issues, interagency
initiatives, and significant activities of DOJ's health care fraud component
organizations as well as periodic summaries of recent cases.
organizing and overseeing,
in conjunction with the Civil Division, the National level Health Care Fraud
Working Group to address fraud in health care and managed care.
participating on interagency
working groups formed to address illicit Internet sales of drugs and medical
products and nursing home fraud and resident abuse.
The Fraud Section has responsibility
for handling complex health care fraud litigation nationwide and examples
of successful prosecutions in FY 2001 include:
HCMF Corporation, a privately
owned nursing home chain in Virginia, which was entitled under the Medicare
and Medicaid programs to claim reimbursement for the administration costs
associated with its operation of eighteen nursing homes throughout Virginia,
pleaded guilty to improperly claiming reimbursement for salaries and benefits
paid to more than thirty HCMF owners, family members and employees who performed
little or no function for the nursing homes or whose duties were largely
unrelated to operating the homes. HCMF also submitted false and misleading
documentation to Medicare and Medicaid auditors in order to justify these
claims. As part of its plea agreement, HCMF agreed to pay restitution to
these programs in the amount of $1.7 million, and the Chairman of HCMF's
Board of Directors was held jointly and severally liable for the restitution
amount. Both the Chairman, and the Treasurer of HCMF pleaded guilty to making
false statements in connection with a Federal health care program, and for
concealing information from Medicare and Medicaid so that HCMF could continue
receiving reimbursement. In addition to any criminal sentences imposed,
these two officers, by virtue of their guilty pleas, will be excluded from
the health care benefit programs for at least five years.
Civil Rights Division
The Special Litigation Section
of the Civil Rights Division vigorously pursues relief affecting public, residential
health care facilities and has established an Institutional Health Care Abuse
and Neglect Initiative to carry out the Department's initiative to eliminate
abuse and grossly substandard care in Medicare and Medicaid funded nursing
homes and other long-term care facilities.
The Section plays a critical
role in the HCFAC Program. As the sole component responsible for the Civil
Rights of Institutionalized Persons Act, 42 U.S.C. § 1997 (CRIPA) authorizes
investigation of conditions of confinement at state and local residential
institutions (including facilities for persons with developmental disabilities
or mental illness, and nursing homes) and initiation of civil action for injunctive
relief to remedy a pattern or practice of violations of the constitution or
Federal statutory rights. The review of conditions in facilities for the mentally
ill and for persons with developmental disabilities, and nursing homes comprises
a significant portion of the program. The Special Litigation Section works
collaboratively with the USAOs around the country and with HHS.
Accomplishments
As part of the Department's
Institutional Health Care Abuse and Neglect Initiative, and as an enhancement
to the Department's ongoing CRIPA enforcement efforts, the Special Litigation
Section staff began preliminary inquiries into conditions and services at
29 nursing home facilities in 15 states. Our task in preliminary inquiries
is to determine whether there is sufficient information supporting allegations
of unlawful conditions to warrant formal investigation under CRIPA. Conditions
uncovered at one nursing home will be the subject of a full CRIPA investigation.
Inquiries regarding the remaining 28 facilities are continuing. In addition,
Section staff are conducting preliminary inquiries of two public facilities
for persons with mental illnesses.
The Special Litigation Section
staff participated in ongoing nursing home investigations, including the investigation
of Laguna Honda Hospital in San Francisco, California, one of the largest
public nursing home facilities in the United States. This work involved on
site evaluation tours with expert consultants, review of documentary evidence
and interviews of staff. Further tours of Laguna Honda are scheduled for the
next fiscal year. Staff attorneys also presented oral argument as amicus curiae
in a private lawsuit brought concerning Laguna Honda, Davis v. California
Health and Human Services Agency (N.D. Cal.), regarding the proper interpretation
of the integration regulations under the Americans with Disabilities Act (ADA),
42 U.S.C. § 12131. Subsequently, the court ruled that the integration mandates
of Title II of the ADA might oblige defendants to expand community services
for Laguna Honda residents and to place them in the community as appropriate
to their needs.
In addition, the staff conducted
four CRIPA investigations of residential facilities for persons with developmental
disabilities: Oakwood Developmental Center in Kentucky; Woodward and Glenwood
Centers in Iowa; and Holly Center in Maryland. In both the Kentucky and Iowa
investigations, Special Litigation Section staff conducted tours of facilities,
accompanied by expert consultants, reviewed documents, and interviewed facility
staff. The Special Litigation Section staff are preparing detailed letters
which will inform the responsible officials not only of the specific findings
made during the investigation, but also of the minimum remedies required to
address identified deficiencies. In the Holly Center investigation, negotiations
toward settlement are continuing regarding the correction of some remaining
deficient conditions. In all of these matters, section staff review situations
which may entail alleged abuse and neglect.
The Section staff also conducted
compliance reviews in four cases: United States v. Tennessee (M.D. Tenn.)
involving Clover Bottom Developmental Center; Harold Jordan Center and Greene
Valley Developmental Center; United States v. Tennessee ( D. Tenn.) involving
the Memphis Mental Health Institute; United States v. New Mexico (D. N. Mex.)
regarding the New Mexico School for the Visually Handicapped; and Evans and
United States v. Williams (D. D.C.) involving dozens of community placements
and services for persons with developmental disabilities in the District of
Columbia. In each of these cases, staff reviewed compliance with the terms
of previously filed agreements and court orders. In addition to compliance
activities in Evans, staff were active in negotiating a new consent order
and settlement agreement which established the Quality Trust for Individuals
with Disabilities, a nonprofit organization independent of the parties that
will provide advocacy and legal services to consumers within the District
of Columbia's developmental disabilities system. The District agreed to pay
an initial sum of $11 million into a trust, and to fund the Quality Trust
at a rate of $2 million per year for the first 10 years to allow the trust
to grow. The result will be a permanent, independent advocacy organization.
In addition to its law enforcement
activities, the Special Litigation Section is responsible for representing
the Civil Rights Division in the Department's health care fraud activities.
The Section participates, for example, as a Department and Civil Rights representative
on an inter-agency Nursing Home Steering Committee. The Section has also participated
in public education and outreach by speaking and participating at both national
and regional conferences on quality of care in health care facilities.
Justice Management
Division
The Justice Management Division,
Debt Collection Management Staff continues to perform for the program various
administrative and coordination duties. The duties of this office include:
budget formulation, oversight and coordinating with the Office of Management
and Budget and CMS; coordinating with HHS/OIG and the Department of the Treasury
on the tracking of collections; coordinating with the GAO on required audits;
and preparation and coordination of the annual report. In addition, $629,000
for the Nursing Home Initiative was administered by this office.
APPENDIX
Federal Bureau of Investigation
Mandatory Funding
"There are hereby
appropriated from the general fund of the United States Treasury and
hereby appropriated to the Account for transfer to the Federal Bureau
of Investigation to carry out the purpose described in subparagraph
(C), to be available without further appropriation - (I) for fiscal
year 2001, $88,000,000."
The health care industry
is an attractive target to fraudulent activity which, if not aggressively
pursued, can have a significant detrimental effect on the financial stability
of the U.S. health care system. As such, successful health care fraud enforcement
cannot be achieved by one agency alone. Investigations must be a cooperative
effort if they are to be successful in combating the increasing problems of
health care fraud. The FBI is actively involved in this cooperative effort.
The FBI works many health
care fraud cases on a joint basis with other Federal agencies, including the
HHS/OIG. These two Federal agencies collaborate through attendance at health
care fraud working groups, attend each others training conferences, and have
a liaison program between the two organizations. In addition, most health
care fraud task forces formed by FBI field divisions represent the coordinated
efforts between the FBI, state and local law enforcement, Federal investigative
agencies such as HHS/OIG, and private industry. The FBI and HHS/OIG continue
to share a common commitment to ending fragmented health care fraud enforcement
efforts and encouraging the coordination of investigative resources.
Under HIPAA, the FBI was
provided $88 million in 2001 for health care fraud enforcement. This money
was used to support 776 positions (445 agents) funded in prior years and an
additional 48 positions
(30 agent) in 2001. Currently, the FBI has 14 dedicated health care fraud
squads across the country. As the FBI has increased the number of agents assigned
to health care fraud investigations, the number of pending investigations
has increased over 400 percent rising from 591 cases in 1992 to 2,870 cases
through 2001. The FBI is the only Federal investigative agency to have jurisdiction
over both government sponsored health care programs and privately funded health
care programs. Criminal health care fraud convictions resulting from FBI investigations
has risen from 116 in 1992, to 650 through 2001.
Health care fraud investigations
are among the highest priority investigations within the FBI. The investigations
are generally complex and require specific knowledge, skills and abilities
to successfully investigate. Often, sophisticated, innovative, and creative
ideas are needed to combat and eventually prosecute the perpetrators of these
crimes. As the complexity and long-term nature of health care fraud investigations
increase, the FBI anticipates that the number of FBI investigations and convictions
will begin to level off.
A considerable portion of
the increased funding was utilized to support major health care fraud investigations.
In addition, operational support has been provided for FBI national initiatives
focusing on pharmaceutical diversion, chiropractic fraud, medical clinics,
and transportation providers. Further, the FBI continues to support individual
field offices with equipment and to assist in various individual investigations.
The funding made available
through HIPAA also made possible a health care fraud Managers Conference and
several Regional Training Conferences for FBI Agents and Professional Support
assigned to health care investigations. These training sessions provided in-depth
training on the Medicare program and current health care fraud trends and
issues to approximately 300 investigative personnel. Other training made possible
by HIPAA included: training sessions on data mining and Medicaid fraud. Further,
HIPAA funding was utilized to fund training sponsored by various private organizations.
GLOSSARY
The Account - The Health
Care Fraud and Abuse Control Account
ACE - Affirmative Civil
Enforcement
ADA - Americans with Disabilities
Act
AoA - Administration on
Aging
ASBTF - Assistant Secretary
for Budget, Technology and Finance
CIA - Corporate Integrity
Agreement
CMS - Centers for Medicare
and Medicaid Services
CRIPA - Civil Rights of
Institutionalized Persons Act
DME - Durable Medical Equipment
DOJ - The Department of
Justice
FBI - Federal Bureau of
Investigation
FCA - False Claims Act
FDA - Food and Drug Administration
FEHBP - Federal Employees
Health Benefits Program
GAO - General Accounting
Office
HHS - The Department of
Health and Human Services
HIPAA, or the Act - The
Health Insurance Portability and Accountability Act of 1996, P.L. 104-191
IHS - Indian Health Service
OGC - The Department of
Health and Human Services, Office of the General Counsel
OIG - The Department of
Health and Human Services, Office of Inspector General
OLE - Office of Legal Education,
located within the Executive Office for the United States Attorneys
PAM - payment accuracy measurements
The Program - The Health
Care Fraud and Abuse Control Program
Secretary - The Secretary
of the Department of Health and Human Services
SMP - Senior Medicare Patrol
TAG - Technical Advisory
Group
USAO - United States Attorney's
Office
1. Hereafter,
referred to as the Secretary.
2. Also
known as the Hospital Insurance (HI) Trust Fund. All further references to
the Medicare Trust Fund refer to the HI Trust Fund.
3. In 2001,
DOJ collected, or continued to hold in suspension, additional funds from health
care fraud cases and matters that were not disbursed to the affected agencies
and/or the Account in 2001 due to: (i) ongoing litigation regarding relator
shares in qui tam cases that will affect the amount retained by the
Federal government; and (ii) receipt of funds late in the year that were then
processed in FY 2002.
4. In addition,
HHS/OIG obligated $1,622,000 in funds received as "reimbursement for the costs
of conducting investigations and audits and for monitoring compliance plans"
as authorized by section 1128C(b) of the Social Security Act, 42 U.S.C. 1320a-7c(b).